OFFICE OF INSPECTOR GENERAL 



AUDIT OF USAID'S FISCAL
YEAR 2013 COMPLIANCE WITH
THE FEDERAL INFORMATION
SECURITY MANAGEMENT ACT
OF 2002
AUDIT REPORT NO. A-000-14-001-P
October 15, 2013



WASHINGTON, DC
This is a summary of our report on the "Audit of USAID's Fiscal Year 2013 Compliance with the
Federal Information Security Management Act of 2002." The Federal Information Security
Management Act of 2002 (FISMA) requires agencies to develop, document, and implement an
agency-wide information security program to protect their information and information systems,
including those provided or managed by another agency, contractor, or other source. The act
also requires agencies to have an annual assessment of their information systems.

The Office of Inspector General (OIG) contracted with the independent certified public
accounting firm of Cotton & Company LLP to conduct the audit. Cotton was required to conduct
the audit in accordance with U.S. Government auditing standards. The objective was to
determine whether USAID implemented selected minimum security controls for selected
information systems to reduce the risk of data tampering, unauthorized access to and disclosure
of sensitive information, and disruptions to USAID's operations.

The audit found that USAID had not established an effective risk management program to
ensure that policies and procedures were assessed and working as intended. In addition,
Cotton reported that USAID's decentralized management of information technology and
information security did not allow it to implement a process to effectively assess, respond to,
and monitor information security risks throughout the Agency. Consequently, the audit
concluded that USAID was not in substantial compliance with FISMA.

Based on Cotton's report, OIG made 29 recommendations to help USAID strengthen its
information security program. Management decisions were made on all 29 recommendations,
and final action was taken on 2 of them. However, OIG did not agree with 5 management
decisions and encouraged USAID to revise them to fully address the weaknesses identified in
Cotton's audit report.
u.s. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

         Washington, D.C. 20523 

            Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           http://oig.usaid.gov 

